No.
In The Supreme Court of the United States
In Re Barbara I Riley
Petitioner*

PROOF OF SERVICE

v.

PROOF OF SERVICE
I, Barbara J. Riley, hereby declare, under penalty of perjury that on April ^ I 2021.
11 Mailed a copy of (1) Petitioner’s Mandamus/Prohibition Writ Appendix and a (2)
Verified Petition for a Writ ofMandamus/Prohibition to the Clerk of the U.S. Supreme
Court for Filing and and copies to the following.
1. Supreme Court of the United States, Office of the Clerk, One First St., N.E. - OFC,
Washington, DC 20543-0001; Article Nos. EJ 503 303 260 US; and 9590 9402 5162
9122 5285 55. Also, $300.00 Docket Fee Paid by U.S.P.S. Money Order. Thank You.
2. New York State Office of the Attorney General, 28 Liberty Street, New York, NY
10005, ATTN: Managing Attorney’s Office/Personal Service; Article Nos. EJ 503 303
273 US; and 9590 9402 5162 9122 5279 85 Return Receipt Requested Paid.
3. New York City Corporation Counsel, NYC Law Department, 100 Church Street, New
York, NY 10007-2601; Article Nos. EJ 503 301 326 US; and 9590 9402 5162 9122 5279
92 Return Receipt Requested Paid.
Dated: April ^ . 2021
Jacksonville, Florida

r /\
Bari
^'RildjyPro Se, Petitioner
P.O. Box 73-T5
Jacksonville, FL 32238
Phone. 904.316.3698

By:

RECEIVEDl
APR 2 3 2“21

°fsgg.arjoSBct&l

